                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A07050025                                                            11                 1
                                                                                              Page 1 of 1    1   1
                 An allegation of plagiarism within an NSF proposal1from one source text2 was brought
         against three PIS^. The Subjects were contacted regarding the allegation. All of the Subjects
         responded to the allegation and all indicated that only one subject4 was responsible for the
         questionable text.

                Evidence indicated that the Subject who took responsibility did not intend to copy the limited
         amount of inadequately cited text. Evidence also indicated that some of the text identified as
         inadequately cited was in fact work conducted by the Subject. Lastly, the Subject acknowledged that
         the source text should have been better distinguished via quotation marks.

                Given the circumstances and the small amount of text involved, we have written to the
         Subject suggesting that he be more careful in future proposals. No further action is warranted.

                    Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
